■:k

IN THE
SUPREME COURT OF THE UNITED STATES
Kevin A. Craig- Petitioner

vs.
O’Bell T. Winn-Respondent
ON PETITION FOR WRIT OF CERTIORARI TO
The Michigan Court of Appeals
petition for writ of certiorari

381110
:vinA. C:
Petitioner In'pro se
Saginaw Correctional Facility
9625 Pierce Road
Freeland, Michigan 48623

RECEIVED
JUL 2 7 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

[i]

filed

JUL / 9 2021
OFFICE Of tuc

CLERK

*

QUESTION PRESENTED FOR REVIEW

I.

Did the sixth circuit court of appeals clearly err in its denial
of petitioner’s request for a certificate of appealability, when
it assessed petitioner’s claim of ineffective assistance of trial
and appellate counsel on the same misconstrued ground as
the district court?

[ii]

c

LIST OF PARTIES IN COURT BELOW

The caption set out above contains the names of all the parties.

[iii]

Table of Authorities Cited
Cases’
No.

Page

Capeton vA. T. Massey Coal Co., 556 U.S. 868 (2009)

16

Horning v District of Columbia, 254 U.S. 135 (1920)

17

Liteky v United States, 510 U.S. 540 (1994)

16

Miller-El v Cockrell, 537 US 322 (2003)

6

People v Plummer, 229 Mich App 293, 301 (1998)

13

People v Talley, 405 Mich 38 (1979)

12

People v Unger, 278 Mich App 210 (2008)

12

Porter vMcCollum, 558 US 30 (2009)(per curiam)

14

Rompilla vBeard, 545 374 (2005)

14

Sandstrom vMontana, 442 U.S. 510 (1979)

17

Strickland v Washington, 466 U.S. 668 (1984)

7-8

Tennard vDretke, 542 US 274 (2004)

6

Wiggins v Smith, 539 US 510, 527-28 (2003)

14

Constitution, Statutes, Regulations, and Rules:
28 USC 2253(c)

6

750.316(l)(a)

12

M

•

TABLE OF CONTENTS

Page No.
Opinions Below
Jurisdiction

n

Constitutional and Statutory Provisions Involved

uriv

Statement of the Case

1-6

Reasons for Granting the Writ

6

Argument

7-21

Conclusion

21
Index to Appendices

appendix a- the January 29, 2021, Judgment from the united states
■DISTRICT COURT FOR THE EASTERN DISTRICT OF MICHIGAN DENYING
PETITIONER’S PETITION FOR WRIT OF HABEAS CORPUS.
appendix b: The May 20,2021, order from the Sixth Circuit court of
APPEALS DENYING PETITIONER’S MOTION FOR CERTIFICATE OF
APPEALABILITY.

[iv]

Opinions Below
The order of the federal court of appeals for the Sixth Circuit
denying Petitioner’s motion for a certificate of appealability was not
reported, but is set forth at Appendix A
The judgment of the United States District Court for the Eastern
District of Michigan denying Petitioner’s petition for a writ of habeas
corpus was not reported, but is set forth in Appendix B

Jurisdiction
The order for the federal court of appeals for the Sixth Circuit was
entered on May 20, 2021. Rehearing was not sought in that court.
Therefore, the jurisdiction of this Court is invoked under 28 USC
§1254(1)

Constitutional Provisions and Statutes Involved
1. The Fifth Amendment, United States Constitution, provides
In all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial, by an impartial
jury of the State and district wherein the crime shall
have been committed, which district shall have been
previously ascertained by law, and to be informed of
the nature and cause of the accusation; to be
confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his
favor, and to have the Assistance of Counsel for his
defense.
2. The Sixth Amendment, United States Constitution, provides:
In all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial, by an impartial
jury of the State and district wherein the crime shall
have been committed, which district shall have been
previously ascertained by law, and to be informed of
the nature and cause of the accusation; to be
confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his
favor, and to have Assistance of Counsel for his
defense.
3. The Fourteenth
provides:

Amendment,

United

States

Constitution,

All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the State wherein they
reside. No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens
of the United States; nor shall any State deprive any
person of life, liberty, or property, without due process
of law; nor deny to any person within its jurisdiction
the equal protection of the laws.
in

4. The statutes under which Petitioner appealed were 28 U.S.C. §
2253(c), which provides:
Unless a circuit justice or judge issues a certificate of
appealability, an appeal may not be taken to the court
of appeals from—
(A) the final order in a habeas corpus proceeding in
which the detention complained of arises
out
of
process issued by a State court; or;
(B) the final order in a proceeding under section
2255;
A certificate of appealability may issue under
paragraph (l) only if the applicant has made a
substantial showing of the denial of a constitutional
right.
The certificate of appealability under paragraph (l)
shall indicate which specific issue or issues satisfy the
showing required by paragraph (2)
5. 28 U.S.C. §1291 provides:
The courts of appeals (other than the United States
Court of Appeals for the Federal Circuit) shall have
jurisdiction of appeals from all final decisions of
district courts of the United States, the United States
District Court of the Canal Zone, the District Court of
Guam, and the District Court of the Virgin Islands,
except where a direct review may be had in the
Supreme Court. The jurisdiction of the United States
Court of Appeals for the Federal Circuit shall be
limited to the jurisdiction described in sections
1292(c) and (d) and 1295 of this Title [28 U.S.C.
§§ 1292(c) and (d) and 1295]

IV

Statement of the Case
Petitioner, KEVIN A CRAIG, a state prisoner, was convicted by
jury of one count of first-degree murder, Mich Comp Laws §750.316, one
count of assault with intent to murder, Mich Comp Laws §750.83, and
one count of felony firearm, Mich Comp Laws §750.22b. The state trial
court sentenced him to a term of life without parole, 40 years to 80
years imprisonment, and a consecutive term of two years.
When Petitioner appealed by right he raised the following federal
constitutional claim in the Michigan Court of Appeals, through
appointed counsel:
MR. CRAIG WAS DENIED HIS CONSTITUTIONAL
RIGHT TO THE EFFECTIVE ASSISTANCE OF
COUNSEL WHERE TRIAL COUNSEL PROCEEDED
AT TRIAL WITHOUT THE USE OF TWO
SEPARATE JURIES.
On July 29, 2014, the Michigan Court of Appeals, affirmed his
convictions and sentences, in an unpublished per curiam opinion.
Petitioner applied for leave to appeal to the Michigan Supreme Court,
which entered an order of denial on March 3, 2015. People v Craig, 497
Mich 972 (2015).
Thereafter, Petitioner filed a state post-conviction motion for relief
1

from judgment, pursuant to Michigan Rules of Court 6.501 et seq, the
State’s exclusive avenue for seeking collateral relief, raising the
following as grounds:
I.

WHETHER DEFENDANT WAS DEPRIVED OF HIS SIXTH
AND FOURTEENTH AMENDMENT RIGHT AND RIGHTS
UNDER ART. 1, 17 & 21, CONST. 1963, TO EFFECTIVE
ASSISTANCE OF COUNSEL ON DIRECT APPEAL OF
RIGHT; WHERE COUNSEL PRESENTED ONE CLAIM FOR
REVIEW ON DIRECT APPEAL AND IGNORED SEVERAL
VIABLE AND MERITORIOUS CLAIMS OF ERROR?

II.

WHETHER DEFENDANT WAS DEPRIVED OF HIS SIXTH
AND FOURTEENTH AMENDMET RIGHT TO A SPEEDY
TRIAL AND MICHIGAN’S 180 DAY RULE, WHERE HIS
TRIAL WAS ADJOURNED AND DELAYED IN ORDER TO
ALLOW THE PROSECUTION TO CONSOLIDATE HIS CASE
WITH THAT OF HIS CODEFENDANT?

III.

WHETHER DEFENDANT WAS DEPRIVED OF HIS SIXTH
AND FOURTEENTH AMENDMENT RIGHT TO DUE
PROCESS AND A FAIR TRIAL, WHERE THE PROSECUTION
FAILED TO PRESENT SUFFICIENT EVIDENCE TO PROVE
PREMEDITATION AND DELIBERATION AND DEFENDANT
IS ACTUALLY INNOCENT OF FIRST-DEGREE MURDER?

IV.

WHETHER DEFENDANT WAS DEPRIVED OF HIS SIXTH
AND FOURTEENTH AMENDMENT RIGHT TO EFFECTIVE
ASSISTANCE OF COUNSEL AT TRIAL, WHERE COUNSEL’S
DEFICIENT PERFORMANCE BEFORE, DURING AND
AFTER TRIAL FELL BELOW AN OBJECTIVE STANDARD
OF REASONABLNESS AND THE RESULTING PREJUDICE
DENIED HIM OF HIS RIGHT TO A FAIR TRIAL?

V.

WHETHER DEFENDANT WAS DEPRIVED OF HIS SIXTH
AND FOURTEENTH AMENDMENT RIGHT TO A FAIR
2

TRIAL AND DUE PROCESS, WHERE THE TRIAL COURT
ABUSED ITS DISCRETION AND REPEATEDLY ALLOWED
THE ADMISSION OF HEARSAY AND SPECULATION
TESTIMONY AND EVIDENCE OVER THE OBJECTIONS OF
THE DEFENSE?
VI.

WHETHER DEFENDANT WAS DEPRIVED OF SIXTH AND
FOURTEENTH AMENDMENT RIGHT TO A FAIR TRIAL,
WHERE THE PROSECUTOR COMMITTED NUMEROUS
ACTS OF MISCONDUCT WHICH INFECTED THE TRIAL
WITH UNFAIRNESS THAT THE RESULTING CONVICTOIN
WAS A DENAIL OF DUE PROCESS?

VII. WHETHER DEFENDANT WAS DEPRIVED OF HIS SIXTH
AND FOURTEENTH AMENDMENT RIGHT TO A FAIR
TRIAL, WHERE THE TRIAL COURT’S JURY INSTRUCTION
ELIMINATED ANY REFERENCE TO A NOT GUILTY
VERDICT AND DIRECTED A VERDICT OF GUILTY?
VIII. WHETHER DEFENDANT WAS DEPRIVED OF HIS SIXTH
AND FOURTEENTH AMENDMENT RIGHT TO A FAIR
TRIAL AND
SIXTH AMENDMENT
RIGHT
TO
CONFRONTATION AND CROSS-EXAMINATION, WHERE
THE TRIAL COURT ABUSED ITS DISCRETION AND
ALLOWED THE PROSECUTION TO ADMIT JAILHOUSE
TELEPHONE RECORDINGS AND 911 TAPES WHICH WERE
IRRELEVANT, IMMATERIAL AND MORE PREJUDICIAL
THAN PROBATIVE?
On January 14, 2016, the trial court denied relief, prompting
Petitioner to raise the following claims on appeal:
I.

THE TRIAL COURT ABUSED ITS DISCRETION IN
DENYING PETITIONER’S MOTION FOR RELIEF FROM
JUDGMENT WHERE IT OPINED THAT PETITIONER’S
TRIAL AND APPELLATE COUNSEL DID NOT PROVIDE
INEFFECTIVE ASSISTANCE.
3

II.

PETITIONER WAS TRIED IN VIOLATION OF THE
JURISDICTIONAL BAR APPLICABLE TO THIS CASE
UNDER THE SIXTH AMENDMENT TO THE U.S.
CONSTITUTION.

III.

THE TRIAL COURT ABUSED ITS DISCRETION WHEN,
CONTRARY TO MCR 6.508(E), IT FAILED TO ADDRESS ALL
THE CLAIMS RAISED IN APPELLANT’S MOTION FOR
RELIEF FROM JUDGMENT.

On September 20, 2016, the Michigan Court of Appeals denied relief.
Petitioner applied to the Michigan Supreme Court, thereafter, but that
court denied relief by standard order. People v Craig; 895 N.W.2d 528
(2017).
Petitioner then took his case to the United States District Court
for the Eastern District of Michigan in 2017, in which he raised the
following claims: (l) the state trial court, when denying his motion for
relief from judgment, erred by rejecting his claims that counsel was
ineffective for: (a) not arguing that his first degree premeditated
murder conviction was supported by sufficient evidence, (b) failing to
raise judicial-misconduct claim, (c) failing to raise prosecutorialmisconduct claims, (d) failing to challenge the jury instructions, and (e)
not objecting to the admission of certain phone calls into evidence; (2)
counsel was ineffective for failing to file a motion to dismiss the
4

indictment on speedy-trial grounds; and (3) the state trial court abused
its discretion by failing to address all of the claims that he had raised in
his motion for relief from judgment. After bypassing any procedural
default analysis, the district court denied Petitioner’s claims on the
merits and a certificate of appealability on July 15, 2020.
Subsequently, Petitioner filed (l) a motion for relief from judgment
under Rule 60(b)(1) (ECF No. 20), advancing two arguments, (2) a
motion for extension of time to file notice of appeal, (ECF No. 23), (3) a
notice of appeal, and (4) an application to proceed in forma pauperis on
appeal (ECF No. 19). Petitioner also filed a notice of appeal after he had
filed his Rule 60 motion for relief from judgment, but before the court
issued a ruling. On or about July 30, 2020, the court issued an opinion
and order (l) denying in part and transferring in part Petitioner’s
motion for relief from judgment, (2) denying the motion for extension of
time as unnecessary because the attached notice to appeal was timely,
(3) granting the application to proceed in forma pauperis on appeal, and
(4) denying a certificate of appealability. The transferred action was
docketed with the Sixth Circuit as Case No. 21-1097.
Petitioner filed a motion seeking a certificate of appealability from

5

the Sixth Circuit court of appeals. On May 20, 2021, circuit judge,
DONALD, however, considered the appealability of the district court’s
dismissal of Petitioner’s habeas petition and entered an order denying
Petitioner’s motion.
Reasons For Granting The Writ
When assessing Petitioner’s claim in his request for a certificate of
appealability, the United States Court of Appeals for the Sixth Circuit,
did exactly what this Court in Miller-El v Cockrell, 537 US 322, 341
(2003) and Tennard v Dretke, 542 US 274, 287 (2004) had warned
courts against doing when assessing requests for a certificate of
appealability pursuant to 28 USC 2253(c). Petitioner raised two claims
for relief in his habeas petition. For each claim, the Sixth Circuit (l)
addressed the merits, (2) applied the wrong legal standard, or (3)
disregarded the debatability of the district court’s resolution of them.
Action from this Court is necessary in order to reaffirm its position
regarding the role of United States courts of appeals when reviewing
requests for a certificate of appealability.

6

ARGUMENT
I.

DID THE SIXTH CIRCUIT COURT OF APPEALS CLEARLY
ERR IN ITS DENIAL OF PETITIONER’S REQUEST FOR A
CERTIFICATE OF APPEALABILITY, WHEN IT ASSESSED
PETITIONER’S CLAIM OF INEFFECTIVE ASSISTANCE OF
TRIAL AND APPELLATE COUNSEL ON THE SAME
MISCONSTRUED GROUND AS THE DISTRICT COURT
In his habeas petition, Petitioner asserted numerous instances

where his trial or appellate counsel rendered ineffective assistance. To
establish ineffective assistance of counsel, a movant must show that his
attorney’s performance was objectively unreasonable and the he was
prejudiced as a result. Strickland v Washington, 466 U.S. 668, 687
(1984). The performance inquiry requires that a defendant “show that
counsel's performance was deficient. This requires showing that counsel
made errors so serious that counsel was not performing as the 'counsel'
guaranteed by the Sixth Amendment." Strickland, 466 U.S. at 687. In so
doing, the defendant must overcome a strong presumption that
counsel’s performance constituted sound trial strategy. Id at 690. The
prejudice inquiry requires that a defendant “show that the deficient
performance prejudiced the defense." Id at 687. To demonstrate
prejudice, the defendant must “show that there is a reasonable
probability that, but for counsel’s unprofessional errors, the result of the
7

proceeding would have been different.” Id at 694. "A reasonable
probability is a probability sufficient to undermine confidence in the
outcome." Id.
A. THE LOWER COURTS MISAPPLIED THEIR OBLIGATION
UNDER JACKSON.
Petitioner first argued that trial counsel rendered ineffective
assistance by not arguing that the prosecution presented insufficient
evidence to establish either the premeditation and deliberation
elements of first-degree murder of Michigan’s jurisprudence, or his
identity as the shooter. With regard to this claim, the Sixth Circuit, as
did all the courts prior to it, state or federal, committed the same
mistake of treating its obligation of reviewing the evidence in light most
favorable to the prosecution as tantamount to ignoring or discounting
facts. Indeed, the essential witnesses’ testimony those courts considered
tended to show his thought process had been encumbered by hot blood
prompted by a sudden affray, which negated the ability of the jurors to
conclude that the act of killing was premeditated and deliberate.
For instance, the state trial court that adjudicated this claim cited
the testimony of Darneil Richardson and Barbara Ingram when it found
the prosecution had presented sufficient evidence to prove Petitioner
8

killed the victim deliberately and with premeditation. Even the Sixth
Circuit focused its analysis on those witnesses’ testimony tending to
show that Petitioner returned to the scene and shot the victim again.
See page 4 of Appendix “B.” However, those courts overlooked the part
of Richardson’s testimony where Richardson admits that he initiated
the confrontation with Petitioner over his outrage regarding Petitioner
standing in front of his “crack house” while bad'mouthing the product
Petitioner’s was selling to the public. TT II, pp. 82, 85. The prosecution
engaged Richardson in the following colloquy:
Q: Okay, so once you, why didn’t you want Kevin on
your street?
A.You say why didn’t I want him?
Q. Yeah, you said why are you here, what was
upsetting to you about that?
A. Because he was like, every like year or something
he would come over there and like, I mean I been
doing drugs for like a couple of years. Well, he would
come over there and try to start, he would get in front
of the house and try to take over, do all this but I tell
him to go on. And I was asking him that time why is
he in front of the house. And he was like telling people
to get out of my house.
Q. Okay, were you selling, was your house selling
drugs on June 12th?

9

A. Yes.
Q. Okay, it was operational?
A. Yes.
Q. And you said Kevin would come over and try to
take over?

A. Yes.
Q. He wasn’t trying to tell you to stop selling drugs on
Sorrento because that’s the wrong thing to do?
A. No, he wasn’t telling me like that. He was out there
just telling people to get out of my house cause he had
a house and the same thing was going on but he has
to do more than mine, cause mine was doing more
than he is.
TTII, pp. 86*87.
This portion of the record establishing Richardson’s verbal
confrontation of Petitioner is buttressed by Ingram’s testimony that
Richardson pulled upon at the scene and approached the crowd
gathered in front of the house in an aggressive manner, with his hand
behind his back and that Richardson began arguing with Petitioner for
standing in front of the house. The prosecution engaged Ingram in the
following colloquyA. So this time I’m standing at the window and I see
Darneil walking up to Kevin Craig with his hands,
10

Darneil got his hands behind his back and he walking
up on Kevin and hes saying he don’t know why he
even over here. And I couldn’t understand what Kevin
was saying back to him.
Q. Okay, and what’s Darneil’s demeanor, what’s he
acting like when he’s saying this? Is he calm? Is he
upset?
A. He a little upset, not much.
TT II, p. 55.
Those courts also ignored the record portion of prosecution witness
Ariel Sydes’ testimony that there was a fight or altercation between
Petitioner and Richardson before the shooting. TT II, p. 73. According to
Sydes, the two men argued for over fifteen minutes as a crowd gathered
to watch and at no point was a threat to kill or any gestures made by
Petitioner of intent to shoot anyone and no testimony offered by any
witness that Petitioner made threats or other gestures as if he intended
to kill anyone. TT II, p. 82.
Richardson, who sparked the incident, gave a different account as
to which defendant left the scene. According to Richardson, Petitioner’s
co-defendant left and returned, drawing a weapon. Petitioner was
unaware and reacted to Richardson’s reaction to the co-defendant’s
actions. When the prosecutor asked Richardson, “When Donovan Young
11

came back, what were you doing?” Richardson replied, “Still arguing
with Kevin.” TT II, p. 90. The prosecutor later asked Richardson, “Okay,
and you said they were looking at each other or they were standing side
to side? to which Richardson replied, “No, Kevin was arguing with me
so he couldn’t be looking at Antonio. When Donovan came back, he
pointed the gun straight at Antonio.” TT II, p. 91. Then when the
prosecutor asked Richardson point-blank whether Petitioner was
“pointing his gun”? Richardson stated a matter-of-factly, “He never
pointed it cause we started running. And once we started running,
that’s when we heard the shots going off.” TT II p. 94.
The Michigan Supreme Court has stated, “When a homicide
occurs during a sudden affray ... it would be ‘a perversion of terms to
apply the term deliberate to any act which is done on a sudden
impulse.’” People v Talley, 405 Mich 38, 44-45 (1979). The elements of
first-degree premeditated murder, under Michigan Compiled Laws,
750.316(l)(a), required the prosecution to prove that Petitioner (l)
intentionally killed a human being, (2) with premeditation and
deliberation. People v Unger., 278 Mich App 210, 223, 229 (2008). When
evidence establishes a fight and then a killing, there must be a showing

12

under Michigan’s jurisprudence of “a thought process undisturbed by
hot blood” in order to establish first-degree premeditated murder.
People v Plummer, 229 Mich App 293, 301 (1998). The critical inquiry in
that circumstance is not just, whether the defendant had time to
premeditate, but also whether he had the capacity to do so. Id.
The record facts in this case show that Petitioner, according to
Richardson, acted in the heat of the moment. Richardson testified that
Petitioner pulled his gun only after Petitioner reacted to Richardson’s
reaction to Petitioner’s co-defendant pointing a gun at the victim. When
Petitioner pulled his gun, according to Richardson, Petitioner was not
pointing it at anyone in particular. Because the prosecutor did not
produce any facts to establish that Petitioner killed the victim in cold
blood, Petitioner’s claim, contrary to the Sixth Circuit’s determination,
was debatable.
Reasonable jurists of reasons would agree that the state court’s
adjudication resulted in unreasonable application of Jackson. In fact,
this Court has ruled on numerous occasion that a state appellate court’s
adjudication of a claim which errs in its application of the legal
standard to the facts by failing to give appropriate consideration and
13

weight to pertinent facts results in a §2254(d)(l) unreasonable
application. See Porter v McCollum, 558 US 30, 42 (2009)(per
curiam)(“The Florida Supreme Court’s decision that Porter was not
prejudiced by his counsel’s failure to conduct a thorough - or even
cursory — investigation is unreasonable. The Florida Supreme Court
either did not consider or unreasonably discounted the mitigation
evidence adduced in the post-conviction hearing); Rompilla vBeard, 545
374, 388-89 (2005)(state court’s “conclusion” that “defense counsel’s
efforts were enough to free them from any obligation to enquire further”
into prior crime evidence that state planned to use in aggravation “fails
to answer the considerations we have set out, to the point of being an
objectively unreasonable conclusion”).
Likewise, this Court has also found a state court’s adjudication
resulted in a §2254(d)(l) unreasonable application when the state court
“merely assumes,” as the state trial court did in Petitioner’s case, that a
certain factual conclusion is correct rather than systematically
scrutinizing the relevant facts. See Wiggins v Smith, 539 US 510, 52728 (2003)(“The Maryland Court of Appeals’ application of Strickland's
governing legal principles was objectively unreasonable. Though the
14

state court acknowledged petitioner’s claim that counsel’s failure to
prepare a social history ‘did not meet the minimum standards of the
professions/ the court did not assess whether the decision to cease all
investigation upon obtaining the records actually demonstrated
reasonable professional judgment. . . . The court merely assumed that
the investigation was adequate.”)
When the Sixth Circuit court of appeals evaluated Petitioner’s
application for a certificate of appealability and determined that
reasonable jurists would agree with the district court’s conclusion, the
court erred in its Miller-El obligations. See e.g., Miller-El, supra, at 341
(reversed Fifth Circuit’s denial of certificate of appealability on the
ground that the district court’s resolution of the petitioner’s Batson
claim was debatable, because the district court “did not give full
consideration to the substantial evidence petitioner put forth in support
of the prim a facie case” and “[{Instead . . . accepted the state court’s
evaluation of the demeanor of the demeanor of the prosecutors and
jurors in petitioner’s trial”).
B. THE LOWER COURTS MISAPPLIED THIS COURT’S LITEKY
DECISION.
Next,

Petitioner

argued

that
15

counsel

rendered

ineffective

assistance by not objecting to the state trial court’s alleged bias.
Petitioner specifically argued that the state trial court violated his due
process rights by consistently ruling in the prosecution’s favor on
evidentiary matters. The Sixth Circuit determined that reasonable
jurists could not debate the district court’s determination that
Petitioner was not prejudiced by counsel’s failure to object, citing Liteky
v United States, 510 U.S. 540, 555'556 (1994). See page 6 of Appendix
“B.” However, Petitioner differs with the Sixth Circuit, and maintains
that reasonable jurists could debate the district court’s determination.
Capeton vA.T. Massey Coal Co., 556 U.S. 868, 887 (2009)(a petitioner
need not prove actual bias, but merely an unconstitutional high
probability of actual bias).
Petitioner argued that counsel was ineffective for not objecting to
the jury instructions, which purportedly eliminated any reference to a
“not guilty” verdict and essentially directed the jury to convict him. The
district court found that the state court’s adjudication of this claim was
a reasonable application of applied federal law, noting, “[njothing in the
instructions could be read to mean that the jury did not have the option
'

of finding [Craig] not guilty of any or all of the charged crimes.” The
16

Sixth Circuit court of appeals evaluated Petitioner application for a
certificate of appealability and determined that reasonable jurists could
not debate the district court’s determination that Petitioner was not
prejudiced by counsel’s failure to object to the jury instructions. See
page 6 of Appendix “B.” Petitioner, however, differs, and maintains that
reasonable jurists could debate the matter. Horning v District of
Columbia,, 254 U.S. 135, 138 (l920)(the jury has the power to bring in a
verdict in the teeth of both law and facts, including the right to
disbelieve all the “undisputed evidence and acquit the defendant
altogether); Sandstrom v Montana, 442 U.S. 510 (l979)(due process
prohibits instructions from removing from the jury any factual
determination regarding one of the elements of the crime).
C. COUNSEL’S FAILURE TO OBJECT TO MULTIPLE
INSTANCES OF PROSECUTORIAL MISCONDUCT IS
DEBATABLE.
Contrary to the both the Sixth Circuit court of appeals, reasonable
jurists could debate the district court’s rejection of Petitioner’s claim
that trial counsel was ineffective for failing to object to multiple
instances of prosecutorial misconduct involving improper vouching for
the credibility of the prosecution’s witnesses and misstated evidence.

17

See e.g., Washington v Holbauer, 228 F3d 689 (6th Cir 2000)(counsel’s
failure to object to clear prosecutorial misconduct amounted to
ineffective assistance).
D. THE LOWER COURTS
DOGGETTBECISION.

MISAPPLIED

THIS

COURT’S

Finally, Petitioner argued that counsel was ineffective for not
moving to dismiss the indictment on the basis that the seven-month
delay between his arrest and the start of his trial violated the Sixth
Amendment’s speedy trial guarantee. When the Sixth Circuit court of
appeals

evaluated

Petitioner’s

application

for

a

certificate

of

appealability, cited Doggett v United States, 505 U.S. 647, 651-652
(1992) and United States v Brown, 498 F3d 523, 530 (6th Cir. 2007) for
the proposition that, unless Petitioner’s claim relies on a delay that
exceeds ten months or one year in length there was no constitutional
violation. To that end, the Sixth Circuit concluded, “Because the roughly
seven-month delay relied on by Craig falls short of this mark,
reasonable jurists could not debate the district court’s determination
that Craig was not prejudiced by counsel’s failure to raise a speedy trial
argument in a motion to dismiss.” See page 7 of Appendix
Petitioner, however, disagrees.
18

B.

First of all none of the delays were attributable to the defense but
rather were engineered by the prosecution for strategic purposes. The
prosecutor filed several motions to consolidate Petitioner’s case with
that of his co'defendant. See Pre-Trial Motion Hearing, p. 3 Therefore,
Petitioner’s claim is more consistent with Doggett, which requires only
that a Petitioner demonstrate prejudice by the delay, not that he must
satisfy some type of number of month threshold. In this instance, the
Sixth Circuit court of appeals again dropped the ball with regard to its
Miller-El obligations. “[A] claim can be debatable even though every
jurist of reason might agree, after the COA has been granted and the
case has received full consideration, that petitioner will not prevail.”
See e.g., Miller-El 537 US at 337.
E. WHEN THE SIXTH CIRCUIT ADDRESSED THE MERITS OF
PETITIONER’S CLAIMS, IT EXCEEDED ITS JURISDICTION.
The Sixth Circuit court of appeals, when it evaluated Petitioner’s
application for a certificate of appealability, it addressed the merits of
each claim of ineffective assistance of trial counsel but failed to address
his claim of ineffective assistance of counsel completely. Appendix “B.”
In that regard, the Sixth Circuit went outside its jurisdiction. See
Miller-El 537 US at 342 (“Before the issuance of a COA, the Court of
19

Appeals had no jurisdiction to resolve the merits of petitioner’s
constitutional claims”).
CONCLUSION
Because the claims contained in his federal habeas petition are
not only debatable, but also implicate his constitutional rights,
Petitioner, KEVIN A. CRAIG, asks that this Court to reverse the Sixth
Circuit’s denial of his motion for certificate of appealability and to grant
this petition for certiorari as to all of his appellate issues because he,
just like the petitioner in Miller-El, has proven “’something more than
the absence of frivolity,’ or ‘the existence of mere good faith on his or her
part.’”

Dated:

Respectfully submitted,

KEVIN A CRAI(y#3B1110
Saginaw Correctional Facility
9625 Pierce Road
Freeland, Michigan 48623

20

